Case: 19-11052

Document: 00515527192

Page: 1

Date Filed: 08/14/2020

tHmteti States Court of SppealjS
for tfje Jftftl) Circuit

United States Court of Appeals
Fifth Circuit

FILED
August 14, 2020

No. 19-11052

Lyle W. Cayce
Clerk

Pat Dee Leatherman,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division
Respondent—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CV-86

Before HIGGINBOTHAM, SMITH, and OLDHAM, Circuit Judges.
Per Curiam:*
Pat Dee Leatherman, Texas prisoner # 01129162, moves for a
certificate of appealability (COA) to appeal the denial of his 28 U.S.C. § 2254
application challenging his guilty-plea conviction of murder. He contends
that the district court erred by dismissing as time barred, and without

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should
not be published and is not precedent except under the limited circumstances set forth in
5TH ClR. R. 47.5.4.

Case: 19-11052

Document: 00515527192

Page: 2

Date Filed: 08/14/2020

No. 19-11052

conducting discovery or holding an evidentiary hearing, his claims that (1) his
trial counsel rendered ineffective assistance by failing to investigate and
subpoena favorable witnesses, (2) the State violated Brady v. Maryland, 373
U.S. 83 (1963), by withholding a recording of an exonerative phone call, (3)
he is actually innocent, and (4) the State violated his due process rights by
using as evidence against him an audio recording of a 911 call in which he
confessed, while intoxicated, to the murder.
A COA may be issued only if the applicant “has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see
Slack v. McDaniel, 529 U.S. 473, 484 (2000). When a district court has
denied a request for habeas relief on procedural grounds, the prisoner must
show “that jurists of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right and that jurists of
reason would find it debatable whether the district court was correct in its
procedural ruling.” Slack, 529 U.S. at 484. Leatherman fails to make the
necessary showing. When an applicant’s “constitutional claims fail” to
make the necessary showing for a COA, “we do not address the merits of
[the] request for an evidentiary hearing. ” Norman v. Stephens, 817 F.3d 226,
234 (5th Cir. 2016).
Accordingly, Leatherman’s motions for a COA, appointment of
counsel, to compel the production of both test results and withheld evidence,
and for release pending appeal are DENIED.

2

Case: 19-11052

Document: 00515575341

Page: 1

Date Filed: 09/23/2020

tHmteb States Court of Appeals!
for tfje Jftftlj Circuit
No. 19-11052

Pat Dee Leatherman,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CV-86

ON PETITION FOR REHEARING EN BANC
(Opinion 8/14/2020,5 CiR.,

F.3d

)

Before Higginbotham, Smith, and Oldham, Circuit Judges.
Per Curiam:
( X ) Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. No
member of the panel nor judge in regular active service of the court

Case: 19-11052

Document: 00515575341

Page: 2

Date Filed: 09/23/2020

19-11052

having requested that the court be polled on Rehearing En Banc
(Fed. R. App. P. and 5th Cir. R. 35), the Petition for Rehearing
En Banc is DENIED.
( ) Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. The court
having been polled at the request of one of the members of the court
and a majority of the judges who are in regular active service and not
disqualified not having voted in favor (Fed. R. App. P. and 5th
Cir. R. 35), the Petition for Rehearing En Banc is DENIED.

2

Case 4:19-cv-00086-0 Document 52 Filed 09/09/19

Page 1 of 6 PagelD 1209

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
PAT DEE LEATHERMAN,

§
§
§
§

Petitioner,

§

v.
LORIE DAVIS, Director,
Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

Civil Action No. 4:19-CV-086-O

§
§
§
§
§
§

OPINION AND ORDER
Before the Court is a petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254 filed
by Petitioner, Pat Dee Leatherman, a state prisoner confined in the Correctional Institutions Division
of the Texas Departent of Criminal Justice, against Lorie Davis, director of that division,
Respondent. After considering the pleadings and relief sought by Petitioner, the Court has concluded
that the petition should be dismissed as time-barred.
I. BACKGROUND
On March 31,2001, in Parker County, Texas, Petitioner called 911 and confessed to shooting
his wife, Tracy Leatherman, numerous times with a shotgun. 01SHR1 33, ECF No. 17-1. On
September 9,2002, Petitioner pleaded guilty and judicially confessed to murder and was sentenced
to thirty years’ confinement. Clerk’s R. 7-9, ECF No. 17-21. Petitioner did not directly appeal his
conviction or sentence. Pet. 3,2 ECF No. 1. However, he filed four state habeas-corpus applications

i«

01SHR,” “02SHR,” “03SHR,” and “04SHR” refer to the state court records in Petitioner’s state habeas
proceedings in WR-57,677-01, -02, -03, and -04, respectively.
2Because there are multiple attachments to the petition; thus, to avoid confusion, the pagination in the ECF
header is used.

Case 4:19-cv-00086-0 Document 52 Filed 09/09/19

Page 2 of 6 PagelD 1210

challenging the conviction. The first, filed on September 8,2003,3 was denied without written order
on February 18, 2004. 01SHR 2, 16, ECF No. 17-1. The second, filed on October 30, 2006,4 was
dismissed for noncompliance with the Texas appellate rules on November 15, 2006. 02SHR 2, 7,
ECF No. 17-3. The third, filed on January 12, 2007, was dismissed as a successive petition under
Texas Code of Criminal Procedure article 11.07, § (4)(a)-(c)onMay9,2007.03SHR2,14, ECF No.
17-5. Over ten years later, on August 7,2017, the clerk of court in the Corpus Christi division of the
United States District Court for the Southern District of Texas received a “letter motion” from
Petitioner, which was construed by that division as a habeas action under 28 U.S.C. § 2254 and
transferred to this division. That prior federal petition was dismissed by this Court on February 20,
2018, for failure to exhaust state-court remedies. Order & Op., Leatherman v. Davis, Case No. 4:17cv-660-O, ECF Nos. 2 & 49. Petitioner returned to state court and filed his fourth state habeas
application on April 16, 2018, which was dismissed as a subsequent application under Texas Code
of Criminal Procedure article 11, § 4(a)-(c) on June 6,2018. 04SHR 31 & Action Taken, ECF Nos.
17-21 & 17-6. This second federal habeas petition challenging his 2002 conviction was filed on
January 23, 2019.5 Petitioner raises four grounds for relief. Pet. 6-7, 10, ECF No. 1. Respondent
asserts that the petition is procedurally-barred under the procedural-default doctrine or, in the
alternative, that the petition is time-barred under the federal statute of limitations. Resp’t’s
3 A prisoner’s pro se state habeas application is deemed filed when placed in the prison mailing system. Richards
v. Thaler, 710 F.3d 573, 578-79 (5th Cir. 2013). Petitioner’s first and fourth state applications do not state the date he
placed the documents in the prison mailing system; thus, the Court deems the applications filed on the date Petitioner
signed the “Inmate’s Declaration.” 01SHR 8, ECF No. 17-1.
4Petitioner was represented by counsel in his second and third state habeas proceedings; thus, the prison mailbox
rule does not apply. See Cousin v. Lensing, 310 F.3d 843, 846-47 (5th Cir. 2002).
likewise, a prisoner’s pro se federal habeas petition is deemed filed when the petition is placed in the prison
mail system for mailing. Spotville v. Cain, 149 F.3d 374, 377 (5th Cir. 1998). Petitioner asserts in his petition that he
placed the document in the prison mailing system on January 23, 2019.

2

Case 4:19-cv-00086-0 Document 52 Filed 09/09/19

Page 3 of 6 PagelD 1211

Preliminary Answer 1,4-17, ECF No. 16. Because the Court finds that the petition is untimely, it
is not necessary to address the procedural-default defense.
II. DISCUSSION
Title 28, United States Code, § 2244(d) imposes a one-year statute of limitations on federal
petitions for writ of habeas corpus filed by state prisoners. Section 2244(d) provides:
(1) A 1-year period of limitations shall apply to an application for a writ of
habeas corpus by a person in custody pursuant to the judgment of a State court. The
limitations period shall run from the latest of(A) the date on which the judgment became final by the conclusion
of direct review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created
by State action in violation of the Constitution or laws of the United States
is removed, if the applicant was prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if that right has been newly recognized by
the Supreme Court and made retroactively applicable to cases on collateral
review; or
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of due diligence.
(2) The time during which a properly filed application for State post­
conviction or other collateral review with respect to the pertinent judgment or claim
is pending shall not be counted toward any period of limitations under this
subsection.
28 U.S.C. § 2244(d)(l)-(2).
With limited exceptions not applicable here, the limitations period begins to run from the
date on which the challenged “judgment became final by the conclusion of direct review or the
expiration of the time for seeking such review” under subsection (A). Id. § 2244(d)(1)(A). For
purposes of that provision, Petitioner ’ s judgment of conviction became final upon expiration of the
3

Case 4:19-cv-00086-0 Document 52 Filed 09/09/19

Page 4 of 6 PagelD 1212

time he had for filing a notice of appeal on October 9, 2002. TEX. R. APP. P. 26.2. Once triggered,
the limitations period expired one year later on October 9, 2003. Therefore, Petitioner’s federal
petition was due on or before October 9, 2003, absent any tolling. Flanagan v. Johnson, 154 F.3d
196, 200-02 (5th Cir. 1998).
Tolling of the limitations period may be appropriate under the statutory provision in §
2244(d)(2) and/or as a matter of equity. According to the Court’s calculation, Petitioner’s first state
habeas application, pending from September 8, 2003, through February 18, 2004, operated to toll
limitations for 164 days, making his petition due on or before Monday, March 22,2004.6 However,
Petitioner’s second and third state habeas applications, filed after limitations had expired, do not
operate to further toll the limitations period. Scott v. Johnson, 227 F.3d 260, 263 (5th Cir. 2000).
Thus, Petitioner’s federal petition is untimely unless he demonstrates that equitable tolling is
justified.
Equitable tolling is permitted only in rare and exceptional circumstances when, although
pursuing his rights diligently, an extraordinary factor beyond the petitioner’s control prevents him
from filing in a timely manner or he can prove that he is actually innocent of the crime(s) for which
he was convicted. McQuiggin v. Perkins, 569 U.S. 383, 386 (2013); Holland v. Florida, 560 U.S.
631, 649 (2010). Toward that end, Petitioner asserts that he is not an attorney and is “simply a Pro
Se Litigant seeking the Mercy of this Court as he Presents the Facts and Evidence that Proves his
Innocence as he Fights for his Freedom.” Pet’r’s Resp. 2, ECF No. 35. However, his pro-se status
does not present an extraordinary circumstance warranting equitable tolling. Felder v. Johnson, 204
F.3d 168, 171-73 (5th Cir. 2000). His extreme years-long delay also mitigates against equitable
6The year 2004 was a leap year, and March 21, 2004, was a Sunday.

4

Case 4:19-cv-00086-0 Document 52 Filed 09/09/19

Page 5 of 6 PagelD 1213

tolling. “Equity is not intended for those who sleep on their rights.” Fisher v. Johnson, 174F.3d710,
715 (5th Cir. 1999).
On the other hand, despite his guilty plea, Petitioner asserts that he is actually innocent.
Pet’r’s Resp. 3, ECF No. 35. A habeas petitioner attempting to overcome the expiration of the statute
of limitations by showing actual innocence is required to produce “new reliable evidence-whether
it be exculpatory scientific evidence, trustworthy eyewitness accounts, or critical physical
evidence’-sufficient to persuade the district court that “no juror, acting reasonably, would have
voted to find him guilty beyond a reasonable doubt.” McQuiggin, 569 U.S. at 386 (quoting Schup
v. Delo, 513 U.S. 298, 329 (1995)). Although actual innocence, if proved, can overcome the statute
of limitations, arguably Petitioner waived his claim by entering a voluntary and knowing guilty plea
to the offense. See United States v. Vanchaik-Molinar, 195 Fed. App’x 262, 2006 WL 2474048, at
* 1 (5th Cir. 2006) (“A voluntary guilty plea waives all non-jurisdictional defects that occurred prior
to the plea and precludes consideration of a claim challenging the sufficiency of the evidence.”).
Even if McQuiggin applies in the context of a guilty plea, Petitioner has not made a colorable
showing that he is actually innocent in light of “new evidence.”
In support of his actual-innocence claim, Petitioner produced in state court, and here, a 2004
affidavit by his brother Doy Lou Leatherman, a 2004 affidavit by Jennifer Marie Fikes, a 2005
affidavit by his mother Darlene Leatherman, his own 2006 affidavit, a 2017 handwritten letter from
Mary Carole Baldree, and notes from a 2004 interview between his attorney and Bobbie Whitworth,
largely implicating Marty Charles as the perpetrator. Pet. 48-59, ECF No. 1. This so-called newly
discovered evidence is not particularly persuasive or reliable, such that it is more likely than not that
no reasonable juror would have convicted him in light of the new evidence. There were no
5

Case 4:19-cv-00086-0 Document 52 Filed 09/09/19

Page 6 of 6 PagelD 1214

eyewitnesses to the murder. And, after the shooting, Petitioner walked to his brother Doy Lou’s
house and told him, “I think I just shot my old lady,” and later called 911 and confessed that “I just
blew my wife’s shit away, I shot my wife with a 12 gauge shotgun, with double and triple ought
buckshot, I don’t think she’s gonna live.” Pet. 53, 62, ECF No. 1. Nor has Petitioner produced any
exculpatory scientific or physical evidence in support of his claim. Petitioner asserts that he filed a
motion for DNA and blood spatter testing in the trial court prior to filing this petition, however he
admits that those tests have not been completed and returned to him. Pet’r’s Resp. 1,9-10, ECF No.
35. Petitioner also asserts that a “Gun Powder Residue Wipe Down Test” indicated no gun powder
residue was found on him and that the state withheld a recording of a phone call between Mildred
King and his mother Darlene Leatherman with exculpatory value. However, Petitioner provides no
proof of these assertions. Id. at 4, 9. Bald assertions, unsupported and unsubstantiated by anything
else in the record, lack probative evidentiary value. See Ross v. Estelle, 694 U.S. 1008,1011 (1983).
Petitioner has not demonstrated a basis for equitable tolling.
Accordingly, Petitioner’s federal petition was due on or before March 22,2004. His petition
filed on January 23, 2019, is nearly fifteen years too late.
III. CONCLUSION
For the reasons discussed, the petition for a writ of habeas corpus pursuant to 28 U.S.C. §
2241 is DISMISSED as time-barred. Further, for the reasons discussed, a certificate of appealability
is DENIED. All motions not previously ruled upon are DENIED.
SO ORDERED on this 9th day of September, 2019.

sZJUXA
mamnmm

N&eed O’Connor
UNITED STATES DISTRICT JUDGE
6

Additional material
from this filing is
available in the
Clerk's Office.

